      U.S. Department of
                                               Memorandum
      Transportation
      Office of the Secretary
      of Transportation
      Office of Inspector General



Subject:    INFORMATION: Audit Announcement—                         Date:    June 18, 2007
            Review of Reported Near Mid-Air Collisions in
            the New York Metropolitan Airspace
            Federal Aviation Administration
            Project Number 07A3019A000
                                                                   Reply to
  From:     David A. Dobbs                                                    JA-10
                                                                   Attn of:
            Principal Assistant Inspector General
              for Auditing and Evaluation

    To:     Assistant Administrator for Financial Services
             and Chief Financial Officer

      The Office of Inspector General plans to conduct an audit of the Federal Aviation
      Administration’s (FAA) actions taken in response to reported near mid-air collisions
      and other possible aviation safety issues in the New York Metropolitan Airspace. We
      are initiating this audit in response to a June 11, 2007, request from Senator Hillary
      Rodham Clinton. Senator Clinton expressed concern because there were five reported
      near mid-air collisions involving commercial aircraft in the region during May 2007.

      Our audit objectives are to address the following questions from Senator Clinton:

           (1) What is the root cause of the near misses in May of 2007 in the New York
               airspace?

           (2) How is the FAA addressing these problems and what measures has the FAA
               taken to prevent repeat occurrences?

           (3) Do any of the New York area airports practice a similar type of procedure that
               FAA ordered a halt to at the Memphis airport where FAA allowed planes to
               simultaneously land and depart from nearby runways that have intersecting flight
               paths?
                                                                               2


We plan to begin the audit the week of June 25, 2007, and will contact your audit
liaison to schedule an entrance conference. If you have any questions or need
additional information, please contact Dan Raville, Program Director, at
(202) 366-1405 or Mary E. (Liz) Hanson, Project Manager, at (404) 562-3778.


                                       #


cc:   FAA Deputy Administrator
      Anthony Williams, ABU-100
      Martin Gertel, M-1
